           LEGAL SERVICES CORPORATION
           OFFICE OF INSPECTOR GENERAL




         REVIEW OF GRANTEE'S
          TRANSFEROFFUNDS
        AND COMPLIANCE WITH
     PROGRAM INTEGRITY STANDARDS




Grantee:    Legal Aid of Southeastern Pennsylvania

                   Recipient No. 339141

                   Report No. 04-03

                     March 2004
                                                                      Legal Services Corporation
                                                                      Office of lnspector General




                                                     March 9,2004


Ms. Elizabeth Fritsch
Mr. Harvey Strauss
Co-Executive Directors
Legal Aid of Southeastern Pennsylvania
317 Swede Street
Norristown, Pennsylvania 19401

Dear Ms. Fritsch and Mr. Strauss:

       Enclosed is our final audit report on Legal Aid of Southeastern
Pennsylvania's compliance with the program integrity requirements of 45 CFR
Part 1610. Your comments on the draft report are included as Appendix I. The
final report contains no recommendations because you corrected the only
problem the audit disclosed.

       A copy of this report is also being sent to the Chair of the Board of
Directors of your program and to LSC management.

      Thank you and all the staff for the cooperation extended to the audit team.
Please contact Richard Adkins at 202 295-1661 or me at 202 295-1651 if you
have any questions.

                                                    Sincerely,



                                                   Leonard J. Koczur
                                                   Acting lnspector General
Enclosure


cc:   Leqal Services Corporation
      Randi Youells, Vice President for Programs


                                                                     3333 K Street, NW, 3rd Floor
                                                                     Washington. DC 20007-3522
                                                                      Ph: 202.295.1 500 Fax: 202.337.661 6
                                                                     www.oig.lsc.gov
           LEGAL SERVICES CORPORATION
           OFFICE OF INSPECTOR GENERAL




         REVIEW OF GRANTEE'S
          TRANSFER OF FUNDS
        AND COMPLIANCE WITH
     PROGRAM INTEGRITY STANDARDS




Grantee:
           II"         LSC
            Legal Aid of Southeastern Pennsylvania

                   Recipient No. 339141

                   Report No. 04-03

                     March 2004
                              TABLE OF CONTENTS


RESULTS OF AUDIT ................................................................................. 1

   Court Cases Not Reported to LSC .........................................................1

SUMMARY OF GRANTEE'S COMMENTS ................................................ 2

BACKGROUND .........................................................................................
                                                                                                 2

OBJECTIVES. SCOPE. and METHODOLOGY ..........................................3

APPENDIX I - Grantee Comments ....................................................... I .1

APPENDIX II .OIG Staff Responsible for the Audit and Report .............II -1
                              RESULTS OF AUDIT

       The Legal Services Corporation (LSC) Office of Inspector General (OIG)
conducted this audit to determine whether the Legal Aid of Southeastern
Pennsylvania (grantee) complied with certain requirements of 45 CFR Part I 6 10.
This regulation requires grantees to maintain objective integrity from any
organization that engages in activities prohibited by the LSC Act, LSC
appropriations acts, and LSC regulations. To do so, grantees must be legally
separate from such organizations, not transfer LSC funds to them, not subsidize
any restricted activities with LSC funds, and maintain physical and financial
separation from them. An exception applies for transfers of LSC funds solely for
private attorney involvement (PAI) activities.

      The audit provides reasonable, but not absolute, assurance that the
grantee substantially complied with Part 1610 between July 1, 2001 and
October 31, 2003, the period covered by our review. During this time period, the
grantee was not involved with organizations that engaged in restricted activities
and LSC funds were not transferred to other legal organizations.

       In addition, we reviewed the pleadings for several cases. The cases did
not involve restricted or prohibited activities. However, we identified a case
reporting deficiency that is not directly related to program integrity.

       Court Cases Not Reported to LSC

       The grantee did not report to LSC all cases filed in court as required by 45
CFR Part 1644 and its policies and procedures implementing the regulation. For
the four semiannual periods from July 1, 2001 to June 30, 2003 the grantee
reported that 158 cases were filed in the Chester County Court of Common
Pleas. The OIG identified 89 additional cases that were not reported. None of
the unreported cases were restricted or prohibited by LSC regulations.

       Part 1644 of the regulations requires grantees to report to LSC certain
information regarding each case filed in court by their attorneys. This
requirement applies to all filed cases including those not funded by LSC. Part
1644 also requires each grantee to adopt written policies and procedures to
implement the requirements of this part.

       The grantee adopted policies and procedures in its Legal Work Staff
Manual that implement Part 1644. The Manual provides guidance to staff on
what legal actions are required to be disclosed and how the information on these
actions should be collected and reported to LSC. In addition to cases filed by
grantee attorneys, the Manual states that the disclosure requirements apply to
cases filed pro se whenever grantee attorneys "enter an appearance" in the
case.

       Grantee attorneys filed 51 cases between July 1, 2001 and June 30,2003
that were not reported to LSC as required by Part 1644. An additional 38 pro se
cases should have been reported under the grantee's policies for reporting pro
se cases whenever an attorney enters an appearance. None of the cases
involved LSC restricted or prohibited activities.

      The primary reason for the under-reporting was a breakdown in the
grantee's procedure for collecting case information. Grantee staff members were
not submitting the required forms identifying cases to the Office Manager. This
precluded the Office Manager from maintaining a complete central file of court
cases. Internal controls were not in place to ensure all the forms were being
submitted.

        To correct this problem, the grantee implemented revised procedures
effective January 1, 2004. Under these procedures, each branch office is
responsible for maintaining a current list of reportable cases and the central
office for maintaining a list of case disclosure forms that have been received. To
ensure the central office has sufficient information to accurately meet its 1644
reporting requirements, the lists are to be periodically reconciled.

      We are not making recommendations for this finding because the
grantee's actions should correct the problem.



                      SUMMARY OF GRANTEE'S COMMENTS

        The grantee's response to the draft report concurred with the finding and
described the steps it has taken to correct the reporting problem from occurring
in the future. The grantee's comments are included in Appendix I.



                                BACKGROUND

       Legal Aid of S outheastern Pennsylvania (grantee) is a nonprofit, nonstock
corporation in the Commonwealth of Pennsylvania that provides legal services to
low income, elderly, and disabled clients in Bucks, Chester, Delaware, and
Montgomery Counties Pennsylvania.          The grantee is headquartered in
Norristown and maintains additional offices in Bristol, Doylestown, Chester,
Pottstown, and West Chester, Pennsylvania. Staffing at the time of our audit
included 25 attorneys, 5 paralegals, and 18 other employees who provide
administrative support. LSC funding for 2003 was $1.013 million.
                 OBJECTIVES, SCOPE, AND METHODOLOGY


      The focus of the audit was compliance with requirements established in 45
CFR, Part 1610, relating to program integrity standards, including the transfer of
funds to other organizations (non-LSC). The on-site audit field work was
performed from November 13,2003 to November 21,2003.

       The audit covered the period from July 1, 2001 through October 31, 2003.
The OIG reviewed materials pertaining to the grant, including Certifications of
Program Integrity, audited financial statements, grant proposals and recipient
profiles. The OIG also discussed issues pertaining to the grantee with LSC
program officials. The OIG performed audit field work at the headquarters office
in Norristown as well as the branch offices in Bristol, Chester, and West Chester.

        During the on-site audit, the OIG interviewed and evaluated
documentation provided by the Executive Director as well as attorneys and
administrators. The OIG evaluated the grantee employees' familiarity with the
guidelines set forth in Part 1610. The audit included an assessment of the
grantee's policies and procedures in meeting the program integrity requirements,
including procedures applicable to the transfer of funds to other organizations.
The audit also included an evaluation of the client intake process. In addition,
the OIG evaluated the grantee's controls for oversight of the Private Attorney
l nvolvement Program.

       The OIG reviewed a sample of the grantee's case files to determine if
financial, citizenship, and other eligibility requirements were met. The OIG also
tested a sample of court cases filed by or associated with the grantee's attorneys
to determine if there were any prohibited representations. In addition, to assess
grantee compliance with its reporting procedures, we compared records
maintained by the Chester Court of Common Pleas for the period from July 1,
2001 to June 30, 2003 with the grantee's Case Information Disclosure Reports
submitted to LSC for the same courthouse and period.

       The OIG evaluated all significant agreements (grant funding instruments,
leases and contracts) between the grantee and other organizations and
individuals. Our evaluation included reviewing documentation and interviewing
grantee management to assess compliance with grant requirements.

        The OIG evaluated accounting policies and procedures, including
allocation of direct and indirect costs to LSC and non-LSC funding sources. The
OIG also evaluated timekeeping procedures, including interviewing employees to
verify compliance. The OIG tested samples of payments to vendors (contractors
and consultants) and employees for both 2002 and 2003.
      The OIG performed the audit in accordance with Government Auditing
Standards established by the Comptroller General of the United States and
under authority of the Inspector General Act of 1978, as amended and Public
Law 108-7, incorporating by reference Public Law 104-134.
                                                                                                 APPENDIX I
1)    LEGAL *ID OF 5 0 U T H E A S T E R N PENNSYt..VANii\
                                                                                 HARVEY F. STRAUSS, ESQ.
                                                                                    CO-EXECUTIVE DIRECTOR
                                                                                        (NORRISTOWN)

                                                                                 ELIZABETH FRITSCH, ESQ.
                                                                                    CO-EXECUTIVE DIRECTOR
                                                                                          (BRISTOL)


      ADMINISTRATIVE OFFICES:     MONTGOMERY COUNTY OFFICE                       BUCKS COUNTY OFFICE
                                       317 SWEDE STREET                      1290 NEW RODGERS RD. BOX 809
                                NORRISTOWN, PENNSYLVANIA 19401                BRISTOL, PENNSYLVANIA 18901
                                         (610) 275-5400                               (215) 781-1111
                                       FAX: (610) 275-5406                         FAX: (215) 781-1116




                                                             March 1, 2004

     Leonard J. Koczur
     Acting Inspector General
     Legal Services Corporation
     3333 "K" Street, 3rd Floor
     Washington, D.C. 20007-3522

            RE: Legal Aid of Southeastern Pennsylvania (Recipient No. 339141)
                   Comments to OIG Draft Report

 Dear Mr. Koczur:

          This will acknowledge receipt of your office's draft report on your audit of our program,
 Legal Aid of southeastern Pennsylvania (LASP). We were very pleased that the primary
 purpose of your audit, the review of our program's transfer of funds and compliance with
 program integrity standards, indicated that LASP was not involved with organizations that
 engaged in restricted activities and that LSC funds were not transferred to other legal
 organizations. Further, your report indicated that our program is and was not involved in
 restricted or prohibited activities nor was there any subsidization or transfer of h d s to
 organizations that engage in restricted activities. We believe that Page 4 of your draft report
 accurately depicts the very comprehensive nature of your audit and again finds our program in
 compliance with all applicable rules and regulations.

         We do acknowledge that there was a deficiency in case reporting, not related to program
integrity, described on Pages 3-4 of the draft report. As the report accurately states, the case
information was compiled in the local office where the cases were handled, but there was a
failure to transmit all of the case information to the central office where the report was generated
for the Legal Services Corporation (LSC). It also should be noted that, for some of these cases,
the actuaYoriginaI court case was filed pro se and not by LSC staff, particularly in the case of
some divorce or protection from abuse cases. We now understand that under General Counsel
External Opinion 98-41, a case disclosure fodreport need not be completed for these cases.

        As your report indicates on Page 3, we have taken steps and implemented revised
procedures effective 1/1/04 (copy attached), which we believe will correct the situation from that
time forward. We have also met with our program's managing attorneys and other appropriate
staff to review the situation and to further ensure that it does not occur in the future. We are
pleased that your draft report indicates that our program's actions should correct this problem
(Page 3) and that no recommendation for this finding is necessary.

      Finally, we want to thank your auditors, Richard Adkins and Abel Ortunio. Rick and
Abel were very professional and pleasant in their dealings with our staff and with us. They
recognized and respected that any audit or monitoring can be disruptive to the normal schedule
and work of a program and were considerate of this while still doing their work. We found them
to be very congenial, interested in our program, its history and work, and appreciative of both
their responsibilities and ours.

        We understand that these comments will be attached in full to your final report. Thank
you.

                                                   Very truly yours,



                                                  Harvey F. ltrauss
                                                  On Behalf of Harvey F. Strauss and
                                                  Elizabeth W. Fritsch
                                                  Co-Executive Directors
HFSImf
Enclosure
cc:   Elizabeth W. Fritsch, Co-Exec. Director
      Richard Adkins, Supervising Senior Auditor
      Abel Ortunio, Supervising Senior Auditor
      Dean P. Arthur, President LASP Board of Directors
      Theodore Q. Thompson, Vice-president LASP Board of Directors
      Donald 3. Weiss, Treasurer LASP Board of Directors
      Robert M. Mulhem, Jr., Secretary LASP Board of Directors
      Cathy Herman, LASP Fiscal Manager

(Sent via Fax and First Class Mail)
                 LEGAL AID OF SOUTHEASTERN PENNSYLVANIA (LASP)
                  CASE DISCLOSURE FORM REPORTING PROCEDURES

        In addition to the procedures set forth in A.13 of the Staff Manual on Disclosure of Case
Information, the following procedures are to be instituted effective January 1,2004 to ensure
complete and accurate reporting of appropriate cases to LSC:

         Each local office in LASP shall make a copy of all case disclosure forms completed by
advocates working in that office and will keep that copy along with a list of such forms. That list
will contain the name of the client and the date on which the form was sent to Norristown. The
list will be updated daily. As these forms are received in the central office in Norristown, a
similar list will be kept there with the name of the client and the date received. Periodically, staff
in Norristown will compare their list to the lists being kept in the other offices to make sure that
all forms have been sent and received. In the event Norristown's list does not reflect all the .
forms listed in the local office, the forms will be resent. This will allow easy tracking and easy
correction of any omissions. This review will be double checked before each semi-annual report
is due starting with the report due in late July 2004.

        At the same time, LASP will work with others in the state to determine whether there is a
way to use the case management software program, (Clients for Windows ("Kemps") which is
used by all LSC funded programs in the state), to more accurately track and report on those cases
in which discIosure is required. If a form could be developed in that program which could be
generated automatically in appropriate cases, it might be possible for this information to be
downloaded fiom the program in the central ofice into a report without the need for any
transmission of forms fiom the other offices. This would take care of any forms which might go
astray. LASP will work with others on development of such a capability.

       Finally, LASP will investigate the use of county court dockets to see if it is feasible, or
even possible, to use them to reveal cases in which a case disclosure form should have been
completed and sent to LSC. Access to this information seems to be more easily,obtainable from
some counties than others, however, and this may not be an effective way to ensure compliance.
                                            APPENDIX   - II
OIG Staff Responsible for the Audit and the Report

Richard Adkins
Abel Ortunio
